NATIONAL OCEANIC
AND ATMOSPHERIC
ADMINISTRATION
NOAA Needs to Continue
Streamlining the
Rulemaking Process and
Improve Transparency and
Consistency in Fisheries
Management


FINAL REPORT NO. OIG-13-011-I
JANUARY 16, 2013


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Insp ect or General
                                                               Washington, D.C. 20230



January 16, 20 13

MEMORANDUM FOR:              Dr. Jane Lubchenco
                             Under Secretary of Commerce for Oceans and Atmosphere

                             ~J.J;_
FROM:                        Todd J. Zinser

SUBJECT:                     NOAA Needs to Continue Streamlining the Rulemaking Process and
                             Improve Transparency and Consistency in Fisheries Management
                             Final Report No. OIG-13-0 I 1-1

Attached is our final report on the controls and processes used by NOAA's Fishery
Management Councils (FMCs) for fishery rulemaking. We are conducting this review in phases
and expect to generate reports incrementally. In this first phase, we evaluated the role of
NOAA and the FMCs in the fishery rulemaking process and the transparency of the rulemaking
process prescribed under the Magnuson-Stevens Fishery Conservation and Management Act
(MSA).

We found that while NOAA's National Marine Fisheries Service (NMFS) has complied with the
MSA requirements we reviewed and has taken action to improve implementation of the MSA,
(I) its required financial disclosures for FMC members who vote do little to increase
transparency and lack effective review, (2) NMFS has not fully implemented several regulatory
streamlining remedies, and (3) rules packages and administrative records supporting fishery
management actions are not maintained uniformly at NMFS regional offices.

On December 18, 2012, we received NOAA's response to our report, which accepted all of
our recommendations. Where appropriate, we have modified our final report based on this
response. The formal NOAA response is included as appendix E. The final report will be posted
on OIG's website pursuant to section 8L of the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. W e extend our thanks to NOAA
for the courtesies shown our staff during our fieldwork. If you have any questions about this
report, please contact Ann C. Eile rs at (202) 482-2754 or Andrew Katsaros at (202) 482-7859.

Attachment
                                             Report In Brief                                    J AN U AR Y 1 6 , 2 0 1 3




Background                                NATIONAL OCEANIC AND ATMOSPHERIC
The legislation that directs how          ADMINISTRATION
NOAA manages the nation’s fisher-
ies and the principal law that governs    NOAA Needs to Continue Streamlining the Rulemaking
the fishery rulemaking process is the     Process and Improve Transparency and Consistency in Fisheries
Magnuson-Stevens Fishery Conser-
vation and Management Act (MSA).          Management
A primary goal of the MSA is to end
                                          OIG-13-011-I
and prevent overfishing through the
use of annual catch limits and ac-
countability measures. Eight regional     WHAT WE FOUND
Fishery Management Councils
                                          FMC voting members’ financial disclosures do little to increase transparency and lack
(FMCs), established by the MSA,
work with NOAA and the public to          effective review. We reviewed 72 publicly available disclosure statement forms for
prepare and maintain fishery man-         current voting council members and noted more than 20 instances where
agement plans for fisheries under         required information was missing.
their authority. Fishery management
                                          NMFS has not fully implemented regulatory streamlining remedies. In 2003, NMFS
plans are intended to preserve and
repair fisheries while minimizing ad-     developed a Regulatory Streamlining Project (RSP) in response to criticisms of
verse effects on dependent commu-         the fishery management process from Congress and its constituents (such as
nities through a formal process that      fishers). Although NMFS received $2.5 million in its FY 2005 appropriation for
incorporates scientific data, the         the RSP, it has still not been fully implemented.
knowledge of council members and
advisory bodies, and public input.        Maintenance of rules packages and administrative records needs to be consistent.
                                          Record-keeping and file organization are not uniform across NMFS regional
Why We Did This Review                    offices, which make it difficult for NMFS headquarters to provide oversight.
On August 17, 2011, Congressmen           WHAT WE RECOMMEND
Barney Frank and John F. Tierney
asked OIG to review controls and          We recommend that the Assistant Administrator for NOAA Fisheries:
processes used by NOAA’s FMCs to
                                          1. 	 strengthen policy guidance on financial disclosure by FMC voting members,
develop rules for the commercial
fishing industry—known as fishery              with emphasis on how NOAA intends to handle specific consequences for
rulemaking. The request was                    conflicts or potential conflicts it identifies;
prompted by concerns that NOAA’s          2. 	 strengthen processes for formal reviews of financial interest disclosures,
National Marine Fisheries Service
                                              considering the time period that the disclosure covers, how financial interest
(NMFS) had abandoned its core mis-
sions of “development of the com-             amounts relate to voting restrictions, and when affiliations with outside
mercial fishing industry” and                 organizations should be reported;
“increasing industry participation.”      3. 	 strengthen criteria for identifying conflicts of interest and processes to
We are conducting this review of
                                              follow up on any conflicts that are identified;
rulemaking in several phases and plan
to generate additional reports. In        4. 	 finalize draft Operational Guidelines and provide them to NMFS regional
this first phase, we evaluated the role       offices;
of NOAA and the FMCs in the fish-
ery rulemaking process and the            5. 	 finalize regional operating agreements between NMFS regional offices and
transparency of the rulemaking                FMCs; and
process prescribed under the
MSA. Subsequent products will look        6. 	 develop uniform procedures for the collection, management, and
further into NOAA and the FMCs                maintenance of documents supporting decisions and administrative records
and the rules they develop.                   associated with fishery regulations.
 U.S. DEPARTMENT OF COMMERCE                                                                                           OFFICE OF INSPECTOR GENERAL

Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................5

   I.	 FMC Voting Members’ Financial Disclosures Do Little to Increase Transparency and Lack 

       Effective Review ......................................................................................................................................5

   II. NMFS Has Not Fully Implemented Regulatory Streamlining Remedies......................................6

   III. Maintenance of Rules Packages and Administrative Records Needs to Be Consistent ..........8

Summary of Agency Response and OIG Comments ............................................................................. 10

Appendix A: Objectives, Scope, and Methodology ................................................................................ 11

Appendix B: Goals of MSA Reauthorization and NOAA Implementation Priorities..................... 13

Appendix C: Simplified Diagram of the Process for Developing (and Amending) FMPs and 

Implementing Regulations Under the MSA .............................................................................................. 14

Appendix D: Fishery Management Actions.............................................................................................. 15

Appendix E: Agency Response ................................................................................................................... 16





FINAL REPORT NO. OIG-13-011-I
    U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL


Introduction
On August 17, 2011, Congressmen Barney Frank and John F. Tierney asked OIG to review
controls and processes used by NOAA’s Fishery Management Councils (FMCs) to develop
rules for the commercial fishing industry—known as fishery rulemaking. The request was
prompted by concerns that NOAA’s National Marine Fisheries Service (NMFS) had abandoned
its core missions of "development of the commercial fishing industry" and "increasing industry
participation." 1 FMCs are funded through cooperative agreements with NMFS. See figure 1 for
an overview on fishery rulemaking.
                                                                                    Figure 1. Fishery
We are conducting this review of rulemaking in several
                                                                                    Management Rulemaking
phases, and we expect to generate additional reports. In this
first phase, we evaluated the role of NOAA and the FMCs in
the fishery rulemaking process and the transparency of the                             Magnuson-Stevens Act
rulemaking process prescribed under the Magnuson-Stevens                                  Reauthorized in 2006
Fishery Conservation and Management Act (MSA). 2
Appendix A includes the objectives, scope, and methodology
of this phase of the review.
                                                                                         Fishery Management
We found that while NMFS has complied with the MSA                                             Councils
requirements we reviewed and has taken actions to improve                             With input from stakeholders
implementation of the MSA, (1) its required financial                                 propose fishery management
                                                                                              alternatives
disclosures for FMC members who vote do little to increase
transparency and lack effective review, (2) NMFS has not fully
implemented regulatory streamlining remedies, and (3) rules
packages and administrative records supporting fishery                               Fishery Management Plans
management actions are not maintained uniformly at NMFS                                 Required by the MSA to
regional offices.                                                                      manage stocks of fish off the
                                                                                               U.S. coast
Subsequent products related to our review of fishery
management will look further into NOAA and the FMCs and
the rules they develop.

MSA and Subsequent Reauthorization                                                       Fishery Management
                                                                                               Actions
The legislation that directs how NOAA manages the nation’s                                Implemented by NMFS
fisheries 3— and the principal law that governs the fishery
rulemaking process—is the MSA. Since it was first enacted in
                                                                                      Source: OIG
1976, Congress has amended the MSA several times, and as a
result, fisheries management has undergone significant changes
in goals and priorities. The requirement to rebuild overfished

1
  August 17, 2011, letter from Congressmen Barney Frank and John F. Tierney to Department of Commerce 

Inspector General.

2
  16 U.S.C. § 1801 et seq.

3
  A fishery refers to the activities involved in catching a species of fish (or shellfish) or a group of species that

share the same habitat.


FINAL REPORT NO. OIG-13-011-I                                                                                            1
    U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

fisheries within 10 years, subject to certain exceptions, was added to the MSA in 1996. When
the MSA was last reauthorized in 2007, 4 its rebuilding provisions were amended to require an
immediate end to overfishing. In addition, new requirements for annual catch limits and
accountability measures to address overfishing were added. Appendix B summarizes the goals
of the MSA reauthorization and NOAA’s implementation of the changes.

Fishery Management Councils
As shown in figure 2, eight regional FMCs established by the MSA and funded through
cooperative agreements with NMFS, work with NOAA and the public to prepare and maintain
fishery management plans for fisheries under their authority. In fiscal year 2012, base programmatic
funding allocated to the eight FMCs totaled $28 million.

Figure 2. NOAA Regional Offices and Associated FMCs
                                  NOAA
     NOAA         NOAA                           NOAA            NOAA             NOAA
                                   Pacific
    Northeast    Southeast                      Southwest       Northwest          Alaska
                                   Islands
    Regional      Regional                       Regional        Regional         Regional
                                  Regional
     Office        Office                         Office          Office           Office
                                    Office

                    South
      New          Atlantic
     England        FMC
      FMC

                   Gulf of        Western                                          North
                   Mexico          Pacific               Pacifc FMC                Pacific
                    FMC             FMC                                             FMC

      Mid-
     Atlantic
      FMC         Caribbean
                    FMC



Source: OIG

FMCs develop fishery management plans and management measures for the fisheries in
statutorily prescribed areas within the exclusive economic zone (EEZ). 5 They are also
responsible for developing operating procedures for committee and advisory group meetings
and for developing fishery management plan amendments. NMFS approves, disapproves, or
partially approves FMC-developed plans and amendments and implements approved measures.
There are 114 voting members on the eight FMCs, of which 72 were appointed by the
Commerce Secretary based on nominations from state governors. Other voting council


4
  Magnuson-Stevens Fishery Conservation and Management Reauthorization Act of 2006, Pub. L. No. 109-479
(2007).
5
   An EEZ generally extends from 3–200 nautical miles offshore. Coastal states are responsible for managing
fisheries within state waters, which extend out to 3 nautical miles for most states but 9 nautical miles for Florida
and Texas.

FINAL REPORT NO. OIG-13-011-I                                                                                          2
    U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

members include representatives from the constituent states and NMFS regional
administrators.

Each FMC has an executive director who reports to the council chair or to the head of a
council executive committee. While council members include nonfederal, federal, and state
officials, 6 FMC staffs are nonfederal employees. Staff size ranges from 9 (at the Caribbean FMC)
to 19 (at the Gulf of Mexico FMC). Council staff members provide information for management
decisions, inform the public about council activities, coordinate meetings, create fishery
management documents, and assist council advisory groups.

Fishery Management Plans

The regulation of U.S. fisheries is based on fishery management plans (FMPs or plans). An FMP
is a set of management objectives, and strategies for achieving these objectives within a specific
fishery. The FMCs make decisions within the framework outlined in each plan while NMFS uses
the plans to issue federal regulations.

FMPs are intended to preserve and repair fisheries while minimizing adverse effects on
dependent communities through a formal process that incorporates scientific data, the
knowledge of council members and advisory bodies, and public input. Once a plan or
amendment is developed by the FMC, it is submitted to the Commerce Secretary 7 who
approves, partially approves, or disapproves the plan. Currently, the eight regional FMCs and
NMFS manage 46 FMPs.

National Standards

The MSA requires that FMPs are developed and amended using the best scientific information
available 8 and within the boundaries of the MSA’s 10 national standards, which are listed in table
1. 9 The national standards are statutory principles that must be followed when developing,
amending, and implementing FMPs. The public has an opportunity to comment on FMPs as part
of the regulation-setting process designed to encourage public involvement and promote
transparency. Appendix C summarizes FMP development (and amendment) and regulatory
processes.



6
  Council members are from federal and state governments, commercial and recreational fisheries, academia, the
conservation community, and Indian tribal governments. Members are appointed to obligatory (state-specific) or
at-large (region-specific) seats.
7
  The authority for certain actions—such as review of the FMP/amendment, supporting documentation, publication
of proposed regulations, and issuance of the final rule—has been delegated from the Commerce Secretary to
NOAA officials.
8
  NMFS’s National Standard Guidelines state that “scientific information includes, but is not limited to, information
of a biological, ecological, economic, or social nature. Successful fishery management depends, in part, on the
timely availability, quality, and quantity of scientific information, as well as on the thorough analysis of this
information, and the extent to which the information is applied. If there are conflicting facts or opinions relevant to
a particular point, a Council may choose among them, but should justify the choice.” 50 C.F.R. § 600.315(b)(1).
9
  NOAA regulations summarize the Commerce Secretary’s interpretations of the national standards, which are
guidelines intended to aid the councils in formulating FMPs. 50 C.F.R. §§ 600.305–.355.

FINAL REPORT NO. OIG-13-011-I                                                                                         3
  U.S. DEPARTMENT OF COMMERCE                                                           OFFICE OF INSPECTOR GENERAL

Table I. National Standards of the MSAa
  Conservation and management measures shall:
   1 Prevent overfishing while achieving optimum yield.
   2 Be based upon the best scientific information available.
         Manage individual stocks as a unit throughout their range, to the extent practicable; interrelated stocks shall
   3
         be managed as a unit or in close coordination.
         Not discriminate between residents of different states; any allocation of privileges must be fair and
   4
         equitable.
         Where practicable, consider efficiency, except that no such measures shall have economic allocation as its
   5
         sole purpose.
         Take into account and allow for variations among and contingencies in fisheries, fishery resources, and
   6
         catches.
   7 Minimize costs and avoid duplications, where practicable.
         Take into account the importance of fishery resources to fishing communities to provide for the sustained
   8 participation of, and minimize adverse impacts to, such communities (consistent with conservation
         requirements).
   9 Minimize bycatchb or mortality from bycatch.
  10 Promote safety of human life at sea.
Source: NMFS

a
 Listed here are summaries of the National Standards set forth in section 301(a) of the MSA. Additional 

information and the Commerce Secretary’s guidance on the National Standards are set forth in 50 C.F.R. 600.305 

et seq.

b
  The term bycatch means fish that are harvested in a fishery, but not sold or kept for personal use, and includes

economic discards and regulatory discards. Such term does not include fish released alive under a recreational

catch and release fishery management program.


Types of Fishery Management Actions

Table 2 shows fishing regulations and related announcements that NMFS has adopted since
2009 under the MSA rulemaking process. Types of fishery management actions include
proposed rules, final rules, in-season actions that implement previously published regulations,
emergency rules, and notices to the public of various actions affecting the fisheries. Appendix D
describes the different types of fishery management actions.

Table 2. Summary of NOAA Fishing Regulations Under the Magnuson-Stevens Fishery
Conservation and Management Act
Type of Fishery Management Action                   2011       2010       2009
Proposed rules                                       75          50          60
Final rules                                          86          61          62
In-season actions                                   155         161        162
Emergency rules and interim measures                   7         15           3
Notices                                              82          55         44
Source: OIG with statistics provided by NMFS Office of Sustainable Fisheries
Note: Regulations may take more than 1 year to complete; thus, the numbers in the table only illustrate general
levels of regulatory action from year to year.




FINAL REPORT NO. OIG-13-011-I                                                                                          4
     U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL


Findings and Recommendations
I. FMC Voting Members’ Financial Disclosures Do Little to Increase Transparency
   and Lack Effective Review
To meet the financial disclosure requirements stated in the MSA, 10 NOAA asks that the voting
council members and council member nominees disclose financial interests on a Statement of
Financial Interests form. 11 The MSA does not require FMC staff to submit financial disclosure
forms.

We reviewed 72 publicly available disclosure statement forms for current voting council
members and noted more than 20 instances where required information was missing (see table
3). 12 The omissions indicate ineffective review, and thus, information disclosed may be
inaccurate or incomplete.
Table 3. Information Missing from Statements of Financial Interests
Missing Required Information                                                 Instances Noted
Degree of ownership (e.g., percentage)                                                   3
Start date of financial interest                                                         5
Address of organization                                                                  6
Fisheries of interest                                                                    2
Relationship to interest (e.g., marketing, guide, or charter)                            2
Acknowledgment of no financial interests to disclose                                     4
 Total                                                                                 22
Source: OIG

Instructions on NOAA’s Statement of Financial Interests are, at times, ambiguous. For example,
in one area, the instructions explain that conflicts of interests between council-related actions
and activities must be reported; another area instructs that if there are “no financial interests to
disclose,” simply check the appropriate box and fill out the last page (which only requires
general information and a signature). This type of instruction allows each council member to
judge what information to disclose and how to disclose it. When council members interpret the
instructions differently, the standard is blurred, which may lead to inconsistent reporting.

On the Statement of Financial Interests, NOAA instructs that the amount of financial interest is
not required to be disclosed. However, without this information, NOAA, individual FMCs, and
the public are unable to properly determine if the reported financial interests exceed the

10
   The MSA states that “Each affected individual must disclose any financial interest held by— (A) that individual;
(B) the spouse, minor child, or partner of that individual; and (C) any organization (other than the council) in which 

that individual is serving as an officer, director, trustee, partner, or employee; in any harvesting, processing,

lobbying, advocacy, or marketing activity that is being, or will be, undertaken within any fishery over which the 

Council concerned has jurisdiction, or with respect to an individual or organization with a financial interest in such 

activity.” 16 U.S.C. § 1852(j)(2).

11
   NOAA Form 88-195 (Sept. 1993).

12
   In 9 instances, the “nothing to disclose” box was checked, but information was disclosed.


FINAL REPORT NO. OIG-13-011-I                                                                                        5
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

thresholds and whether the council member should be excluded from voting on issues that
conflict with financial interests.

Each council member subject to the MSA financial disclosure requirements is responsible for
ensuring information on the form is complete and accurate. According to NMFS officials, the
NMFS Office of Sustainable Fisheries reviews the disclosures but does not independently verify
the information.

We also found that instruction provided to FMC executive staffs on how to review for or
report potential red flags on disclosure forms in their jurisdiction is limited and informal. In one
instance, we spoke with an executive director who suspected misreporting by a council
member yet felt there was no available recourse or means to discover whether a misreporting
had actually occurred. Review by council leadership can be a valuable tool if review methods
and escalation procedures are in place. However, the general perception of executive staffs
seems to be that, aside from meeting the requirements of the MSA, very little value comes
from completion of these forms.
To increase the transparency provided by financial interest disclosures and assist voting FMC
members in avoiding conflicts between official council duties and private financial interests or
affiliations, the Assistant Administrator for NOAA Fisheries should strengthen financial
disclosure requirements and procedures.

Recommendations

We recommend that the Assistant Administrator for NOAA Fisheries strengthen:

    1.	 policy guidance on financial disclosure by FMC voting members, with emphasis on how
        NOAA intends to handle specific consequences for conflicts or potential conflicts it
        identifies;

    2.	 processes for formal reviews of financial interest disclosures, considering the time
        period that the disclosure covers, how financial interest amounts relate to voting
        restrictions, and when affiliations with outside organizations should be reported; and

    3.	 criteria for identifying conflicts of interest and processes to follow up on any conflicts
        that are identified.

II. NMFS Has Not Fully Implemented Regulatory Streamlining Remedies
In 2003, based on direction from Congress and as a result of regulatory challenges and court
cases that NOAA faced related to fishery management, NMFS developed a Regulatory
Streamlining Project (RSP). The RSP responds to criticisms of the fishery management process
from Congressional members, their constituents (such as fishers), and other knowledgeable
individuals. Criticisms include a lack of clarity in responsibilities among NMFS regional offices,
science centers, and the FMCs and disconnected processes between NMFS and the FMCs.
Table 4 summarizes the progress NMFS has made in implementing changes described in the
RSP.


FINAL REPORT NO. OIG-13-011-I                                                                        6
     U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

Table 4. Changes NMFS Proposed in the RSP and Status of Implementation
             Proposed Changes               Implemented Partially                           Unimplemented
                                                          Implemented
Front-loading the NEPA process                   X
Revising the Operational Guidelines for the
                                                                                                    X
Fishery Management Process
Establishing a national training program         X
Hiring environmental policy coordinators         X
Improving the administrative process                            X
Improving the fishery management process                        X
Addressing science issues                                       X
Workforce organization/prioritization                           X
Source: OIG and Regulatory Streamlining Report to Congress 13
Note: NEPA = National Environmental Policy Act. 14

NMFS described the RSP as proposals that are the result of years of activities, which led to a
larger effort to improve fishery management. As NMFS developed and began implementing its
RSP, it also cautioned that more staff and funding would be needed to fully implement it. NMFS
received $2.5 million in its FY 2005 appropriation for the RSP. As of 2012, the RSP has not
been fully implemented.
One of the many components of the RSP was revision of the Operational Guidelines for the
Fishery Management Process. The guidelines identify past problems in developing FMPs and
managing fisheries, such as delays and inefficiencies, and explain how NOAA and the Councils
will work together to integrate the many statutory requirements that apply to the development
of fishery management actions. The current Operational Guidelines, dated August 2005, remain
in draft form. Although the guidelines are available to NMFS employees through their
Regulatory Services intranet page, the guidance has not been finalized, and several NMFS
employees we interviewed were unaware of or only vaguely aware of the guidelines.
Additionally, elements of the draft guidelines that could help to improve fishery management
processes have not been fully implemented. One example is the regional operating agreement
between each NMFS regional office and its FMCs. The purpose of the agreement is to provide a
clear understanding of roles, responsibilities, and obligations between FMCs and NMFS regional
offices. As of summer 2012, only one of the eight councils had a regional operating agreement
with its NMFS regional office.

When questioned about why the guidelines were not finalized, NMFS officials explained that
National Environmental Policy Act (NEPA) requirements, reauthorization of the MSA, and
demands on Office of General Counsel staff affected the review and approval process for the
Operational Guidelines and regional operating agreements. In 2005, NMFS officials indicated




13
   NMFS submitted the “Report to Congress on the Regulatory Streamlining Project” on December 16, 2002, with

a stated goal to improve the efficiency and effectiveness of NMFS operations and increase compliance with all 

procedural requirements.

14
   National Environmental Policy Act of 1969, 83 Stat. 852, 42 U.S.C. § 4321et seq.


FINAL REPORT NO. OIG-13-011-I                                                                                 7
     U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

that the delay in formal issuance of the guidelines had not significantly affected progress in
implementing regulatory process improvements. 15

Without the guidelines, expectations that should be clearly defined and communicated early
on—such as responsibility between NMFS and the FMCs for preparation of documents
supporting fishery management decisions and designation of which reports need to be
produced by which entity and with what frequency (e.g., Stock Assessment and Fishery
Evaluation reports 16 and fishery performance reports)—may not be stated and understood.
There is greater opportunity for miscommunication and frustration in an already complex and
time-consuming process, especially when staff changes at NMFS and FMCs can lead to practices
that differ from those followed previously.

NMFS officials explained to us that they have not finalized the agreements because all of the
regions have established individual coordination systems; 17 however, communicating and
documenting processes and expectations should give NOAA a better opportunity to identify
necessary tasks and ensure they are appropriately assigned and completed.

Recommendations

We recommend that the Assistant Administrator for NOAA Fisheries:

      1. finalize draft Operational Guidelines and provide them to NMFS regional offices and

      2. finalize regional operating agreements between NMFS regional offices and FMCs.

III. Maintenance of Rules Packages and Administrative Records Needs to Be
     Consistent

The role of the NMFS Sustainable Fisheries Division is to collaborate with and advise FMCs in
their respective jurisdictions by contributing to the development and implementation of FMPs
and other actions. The Sustainable Fisheries Division in the NMFS regional offices maintains the
official written records supporting regulations implementing FMPs within their geographical area
of responsibility.
However, record-keeping processes and file organization are not uniform across NMFS regional
offices. Of the four regional offices we visited, one has a records officer, whereas the others
rely on various staff familiar with the particular regulation to store and maintain the supporting

15
   National Academy of Public Administration, “Improving Fisheries Management: Actions Taken In Response to

the Academy’s 2002 Report.” Report for Congress and the NMFS, February 2005.

16
   The Stock Assessment and Fishery Evaluation reports provide to FMCs the most recent biological condition of 

stock and the marine ecosystems in the fishery management unit and the social and economic condition of the 

recreational and commercial fishing interests, fishing communities, and fish processing industries. 50 C.F.R. § 

600.315(e)(1). The reports periodically summarize the best available scientific information concerning the past,

present, and possible future condition of the stock, marine ecosystems, and fisheries being managed under federal

regulation. The information may be used to update or expand previous environmental and regulatory impact

documents and ecosystem and habitat descriptions.

17
   According to NMFS officials, region–FMC pairs have systems for assigning and tracking tasks and responsibilities.

The systems are documented in varying formats, including flowcharts, and are often informal.


FINAL REPORT NO. OIG-13-011-I                                                                                       8
     U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL

documentation. Normally, the information is stored centrally and in a combination of manual
and electronic or digital formats, including scanned images. The large volume of inconsistently
maintained documents made our review more complicated. This lack of standardization would
also make it difficult for NMFS headquarters to provide effective oversight. For example,
standardization would allow headquarters the opportunity to ensure regional offices sufficiently
maintained the necessary documentation for each rule in the event of a Freedom of Information
Act request or a lawsuit. Uniform procedures for managing documentation supporting fishery
regulations are needed to help ensure that the documentation supporting regulations is
complete and accessible. For the fishery management actions we examined, we noted that
NMFS regional offices either submitted proposed rules to the science center 18 for review or
certified in decision memos that the action was consistent with national standard 2, requiring
the use of the best scientific information available. Table 5 in appendix A contains the final rules
we reviewed and the date when each was published in the Federal Register.

Recommendation

We recommend that the Assistant Administrator for NOAA Fisheries:

      1.	 develop uniform procedures for the collection, management, and maintenance of
          documents supporting decisions and administrative records associated with fishery
          regulations.




18
 NMFS science centers generate scientific information and analyses in support of fishery conservation and
management. The centers plan, develop and manage NMFS’ scientific research programs related to fisheries.

FINAL REPORT NO. OIG-13-011-I                                                                               9
  U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
On December 18, 2012, we received NOAA’s comments on our draft report, which we
include as appendix E of this report. NOAA did not dispute our findings. Also, NOAA accepted
all recommendations and had no comments, concerns, or suggestions regarding them. NOAA
provided clarifications and additional technical information related to implementation of the
MSA. We considered NOAA’s suggestions in preparing this final report and made several of the
suggested changes.




FINAL REPORT NO. OIG-13-011-I                                                              10
  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
We initiated this review of controls and processes used by NOAA and the FMCs as related to
developing rules for the commercial fishing industry, pursuant to a joint request made by
Massachusetts Congressmen Barney Frank and John Tierney on August 17, 2011.

This is our first report on FMCs and rulemaking. Our review will be conducted in phases and
will result in possible additional products produced at several intervals. In this phase of the
review, our objectives were to evaluate the role of NOAA and the FMCs in the fishery
rulemaking process and the transparency of the rulemaking process prescribed under the MSA:

    •	 We identified fishery management rules developed by NOAA during the period 2007–
       2011 as a result of the MSA.

    •	 We examined rules packages and administrative records for a selection of fishery
       regulations in four of the six NMFS regions, comparing the process that was followed
       with what was described in the laws and regulations. Table 5 lists the fishery
       management actions we reviewed.

    •	 We collected publicly available information on standard rulemaking practices, including
       practices deployed elsewhere within the Department of Commerce.

    •	 We compared the rulemaking process employed by NOAA with the prescribed 

       Administrative Procedure Act 19 process.


    •	 We compiled standard information from the eight regional FMCs, visited three council
         offices (New England, Gulf of Mexico, and Pacific FMCs), and interviewed council
         members and staff (including administrative officers, fishery biologists, economists, and
         an anthropologist).

    •	 We interviewed the eight FMC executive directors.




19
   The Administrative Procedure Act, 5 U.S.C. § 551 et seq., was passed in 1946 to clarify the process of making
regulations and to allow greater accessibility and participation by the public in the rulemaking process.

FINAL REPORT NO. OIG-13-011-I                                                                                      11
  U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

Table 5. Summary of Fishery Management Actions Reviewed
  NMFS          Regulatory                              Description                            Date the Final Rule
  Region           ID                                                                          Was Published in the
                                                                                                 Federal Register
Northeast      0648-AW72        Implements Amendment 16 to the Northeast                            4/9/2010
                                Multispecies FMP
               0648-BA23        Implements the Omnibus Annual Catch                                 9/29/2011
                                Limits/Accountability Measures Amendment
               0648-AY29        Implements measures in Framework Adjustment 44 to                   4/9/2010
                                the Northeast Multispecies FMP
               0648-AW87        Secretarial interim action implementing measures to                 4/13/2009
                                reduce fishing mortality and maintain stock rebuilding at
                                the Northeast Multispecies Fishery
 Southeast     0648-AV14        Revises allowable bycatch reduction devices for the Gulf           11/18/2008
                                of Mexico Shrimp Fishery
               0648-AY55        Implements amendments to the Queen Conch and Reef                  12/30/2011
                                Fish FMPs of Puerto Rico and the U.S. Virgin Islands
                                (fisheries of the Caribbean, Gulf of Mexico, and South
                                Atlantic)
               0648-BA54        Regulatory Amendment to the FMP for the reef fish                   4/29/2011
                                resources of the Gulf of Mexico (GOM) to implement a
                                2011 total allowable catch for GOM red snapper
               0648-AY11        Amendments to the Snapper–Grouper FMP                              12/30/2010
Southwest      0648-AW50        Initiates collection of a permit fee for vessel owners              7/28/2009
                                participating in commercial and charter recreational
                                fishing for highly migratory species
               0648-BA49        Revises vessel identification requirements for fishing             11/29/2011
                                vessels with west coast highly migratory species permits
               0648-AU26        Implements Amendment 12 to the Coastal Pelagic                      7/13/2009
                                Species FMP, prohibiting harvest of all species of krill off
                                the West Coast (i.e., California, Washington, and
                                Oregon)
Northwest      0648-AY68        Implements Amendments 20 and 21 to the Pacific Coast                10/1/2010
                                Groundfish FMP (Trawl Rationalization Program)
Source: OIG

We conducted this evaluation from January 2012 to July 2012, under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
August 31, 2006, as amended. We conducted the evaluation in accordance with the Quality
Standards for Inspection and Evaluation, January 2011, issued by the Council of the Inspectors
General on Integrity and Efficiency.




FINAL REPORT NO. OIG-13-011-I                                                                                         12
  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Appendix B: Goals of MSA Reauthorization and
NOAA Implementation Priorities
The MSA is the predominant legislation for U.S. conservation and management of fisheries.
Over the years in an attempt to improve implementation of the requirements of the MSA and
to promote more effective decision making and fishery management, Congress revised the
MSA. Table 6 outlines the goals of the most recent revisions to the act and NOAA’s priorities
for implementing them.
Table 6. Overview of the Goals of the Reauthorized MSA
Goals of MSA Reauthorization                    NOAA Implementation Priorities

   More stringent requirements to end and            Develop and expand annual catch limits
    prevent overfishing                               Improve data on recreational fishing
   Expansion of management tools                     Address bycatch, illegal, unreported, and
   Increased use of science                           unregulated fishing
   Improved international cooperation                Streamline MSA and National
                                                       Environmental Policy Act requirements
Source: NMFS

A primary goal of the reauthorized MSA was to end and prevent overfishing through the use of
annual catch limits and accountability measures, which were required to be implemented by
2010 for stocks subject to overfishing and by 2011 for all others (with the exception of those
limited by annual life cycles or international agreements). FMCs use various tools—including
annual catch limits and limited access privilege programs (LAPPs), as well as general catch limits,
trip limits, seasons, gear restrictions, and bag limits—to prevent overfishing. LAPPs involve
transferable permits, which specify the amount of catch that may be harvested during a given
time period.

To effectively meet MSA goals and use new management tools, FMC decisions must be based
on timely, reliable scientific information. This creates a need for FMCs to have close
relationships with their science centers. The MSA requires that FMCs develop 5-year research
plans outlining their anticipated needs and priorities. One area of scientific data that has
historically been a challenge to gather is recreational fisheries. Therefore, NOAA has made
improvement of recreational fishery data a priority.

The requirements of both MSA and NEPA have a substantial effect on the enactment process of
fishery management rules. The details of these requirements and effects are substantial and are
outside the scope of this report. Note, however, that the acts have overlapping, as well as
individual, requirements and time frame restrictions. Careful planning by both NMFS and the
FMCs is needed to ensure that every requirement is met in the prescribed time frame.




FINAL REPORT NO. OIG-13-011-I                                                                    13
              U.S. DEPARTMENT OF COMMERCE                                                                           OFFICE OF INSPECTOR GENERAL


         Appendix C: Simplified Diagram of the Process
         for Developing (and Amending) FMPs and
         Implementing Regulations Under the MSA
                                                 Fishery Management Plan                         Regulations Process
                                                 (FMP) Process




                          2a. FMC holds
                          public meetings
                          and develops (or                                       4a. FMC transmits               5a. Within 5 days of transmittal,
                          drafts an amend-                                       proposed                        NMFS notifies the public of the
                                                      3. OMB reviews                                             FMP/amendment via the Federal
                          ment to) an FMP.                                       FMP/amendment
1. FMC and NMFS                                       listing documents                                          Register for a 60-day public
                                                                                 to NMFS.
identify a need for                                   for proposed rules                                         comment period.
conservation and                                      and determines
management in a                                       whether they are
                          2b. Proposed rules          significant, based         4b. FMC transmits               5b. Within 5 days after transmittal
fishery. ries
                          are developed               on Executive Order         proposed                        of a proposed rule, NMFS must
                          either by the FMC,          (EO) 12866a                regulatory text to              initiate a review to determine
                          NMFS, or                    criteria.                  NMFS.                           whether the rule is consistent
                          collaboratively.                                                                       with the MSA, the FMP, and other
                                                                                                                 applicable laws.


                                                              7a. NMFS considers public comment and reviews proposed
                                                              FMP/amendment to determine compliance with national
                                                              standards, other MSA provisions, and other applicable law,
                                                              including EO 12866, the Regulatory Flexibility Act, b the ESA,c       8. If judicial review is
                                                              and the NEPA. The Secretary must approve, disapprove, or              sought, it must be
         6. Within 15 days of initiating the evaluation       partially approve the FMP/amendment within 30 days after              instituted within 30
         under 5b, NMFS must complete the initial             the end of the 60-day notice and comment period.                      days of publication in
         review and, if the determination is                                                                                        the Federal Register.
         affirmative, must publish the proposed rule                                                                                During a judicial
         in the Federal Register for a comment period         7b. NMFS reviews and responds to public comments in the
                                                              final rules. NMFS submits final rules to the Federal Register         review, final rules are
         of 15–60 days.                                                                                                             still effective.
                                                              for publication. The Administrative Procedure Act provides
                                                              that final rules generally do not take effect until 30 days
                                                              after publication.



         Source: OIG with input from NMFS Office of Sustainable Fisheries
         a
          Exec. Order No. 12866, 58 Fed. Reg. 51,735 (Oct. 4, 1993).
         b
             Regulatory Flexibility Act, 5 U.S.C. § 601 et seq. 20
         c
          Endangered Species Act, 16 U.S.C. § 1531 et seq.




         20
           The Regulatory Flexibility Act requires federal agencies to consider the effects of their regulatory actions on
         small businesses and other small entities and to minimize any undue disproportionate burden. The chief counsel
         for advocacy of the U.S. Small Business Administration is charged with monitoring federal agencies' compliance
         with the act and with submitting an annual report to Congress.

         FINAL REPORT NO. OIG-13-011-I                                                                                                                    14
  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


Appendix D: Fishery Management Actions
Proposed rules – Announcements of agencies’ plans to manage fishing activities and
implement objectives stated in FMPs that give interested persons an opportunity to submit
comments to improve the final regulation.

Final rules – Regulations that have gone through the rulemaking process, are approved by the
Commerce Secretary, and have final legal effect. The codified text is published in the Code of
Federal Regulations.

In-season actions – Regulatory actions taken pursuant to, or implementing, regulations that
have been published in the Federal Register. Examples include closing or reopening a fishery and
transferring quota. (These do not make changes to the Code of Federal Regulations.)

Emergency rules and interim measures – Regulations issued in response to events or
problems that require immediate action, such as a public health emergency or oil spill.
Emergency rules are limited to 180 days and can be extended for an additional 180 days if
public comment has been taken.

Notices – Non-rulemaking documents, which do not have regulatory effect, used to inform
and involve the public. Examples include notices of availability (of FMPs and FMP amendments),
notices of permit issuances and applications, notices of stock status determinations, notices of
intent to prepare National Environmental Policy Act documents, and corrections.




FINAL REPORT NO. OIG-13-011-I                                                                  15
  U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL


Appendix E: Agency Response





FINAL REPORT NO. OIG-13-011-I                         16
  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


                                Department of Commerce
                    National Oceanic and Atmospheric Administration
                        Comments on the Draft OIG Report Entitled
          "KOAA Needs to Continue Streamlining the Rulemaking Process and Improve
                 Transparency and Consistency in Fisheries Management"


   General Comments

   In general, NOAA Fisheries feels the inforrnaLion and feedback contained in the draft report are
   both accurate and constructive, and we look forward to the development of an action plan to
   address the recommendations. Outlined below are comments NOAA believes will further
   enhance and improve the accl.lfacy and clarity of the final report.

  Your cover memo notes your appreciation for the assistance from NOAA staff during the review.
  NOAA would also like to extend our appreciation to your staff for their effort to understand fully
  the complexity of the regulatory process and their dedication to completing this comprehensive
  rev1ew.

   Recommended Changes for Factualffechnical Information

  Page I, paragraph 3.
  Some of the requirements mentioned are not specifically required by the MSA. For clarity,
  1\0AA offers the following amendmentto the first sentence so it is revised to read:"--- complied
  with certain MSA requirements and taken additional actions to improve implementation, (1) its
  required finam;ial disdosures .... "

   Page 1. Footnote 2.
   The reference should be to 1Q U.S.C. 1801, et seq., not "6 U.S.C."

   Page I, Footnote 3.
   This footnote defines "fishery" more narrowly than the f'v1SA. Hased on MSA definitions of
   "fishery" and "stock offish" at 16 U.S.C. §§ 1802(13) and (42), we offer the following language
   to better conform with these definitions: "A fishery refers to fishing for a species, subspecies or
   other grouping offish (which includes shellfish) that can be treated as a unit for conservation and
   management purposes and identified based on geographical, scientific, technical, recreational,
   and economic characteristics."

   Page I, last sentence, continuing on topuge 2.
   Note that MSA section J04(e) sets forth rebuilding requirements and section 303(a)(l5) sets
   torth requirements for annual catch limits and accountability measures. 16 U.S.C. §§ 1854(e)
   and 1853(a)(15). For clarity about tl1e timeline of changes to these MSA provisions, we offer the
   following language (starting changes with the second sentence of the paragraph):

           "Since it was fust enacted in 1976, Congress has amended the MSA several times and as
           a result fisheries management has undergone significant changes in goal and priorities.
           The requirement to rebuild overfished fisheries \vi thin 10 years, subject to certain
           exceptions, \Vas added to tbe MSA in 1996. When the MSA was last reauthorized in




FINAL REPORT NO. OIG-13-011-I                                                                            17
  U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


           2007, 1 its rebuilding provisions were amended to require ending overfishing
           'immediately.' In addition, new requirements for annual catch limits and accountability
           measures to address overfishing were added."

  Page 2, third paragraph, line 2
  In lieu of the words, "within their exclusive economic zone (EEZ)," we offer the following
  language to be more accurate: "within statutorily-prescribed areas within the exclusive
  economic zone (EEZ)." See 16 U.S.C. § 1852(a)(l) (describing geographical areas of
  responsibility for each regional fishery management council).

  Page 2, Footnote 5.
  For federal fisheries management purposes under the MSA, note that the inner boundary of the
  EEZ is the seaward boundary of each of the coastal States. 16 U.S.C. § 1802(11). Most states'
  seaward boundary is 3 nm offshore. In a few cases, the boundary is 9 nm offshore. Also, please
  note that the MSA allows for State regulation of its fishing vessels outside the boundaries ofthe
  State in ce11ain circumstances, 16 U.S.C. § 1856(a)(3), and provides a process for federal
  management within state waters in certain limited circumstances, 16 U.S.C. § 1856(b). To be
  more accurate, we offer the following revision to Footnote 5 to read as follows: "The EEZ
  generally extends from 3-200 nautical miles offshore. Coastal states are responsible for
  managing fisheries within state waters, which extend out to 3 nautical miles for most states but 9
  nautical miles for Florida and Texas."
                                1
   Page 2, third paragraph, 4 h line.
   Please note that NMFS does not always "approve" an FMC's recommendation. NMFS must
   approve, disapprove or partially approve a fishery management plan or amendment based on
   whether the action is consistent with applicable law. 16 U.S.C. § 1854(a)(3). To be more
   accurate, we offer the following language instead: "NMFS approves, disapproves or partially
   approves Coum:il-devdoped plans and amendments and implements approved measures."

   Page 2, last sentence.
   To more accurately refle<:t the representation on the Councils (16 U.S.C. § 1852(b)(1)), we offer
   the follo'\\-i.ng language to replace that sentence: "Other voting council menibers include
   representatives from the constituent states and NMFS regional administrators."

   Page 3, First paragraph, second and fourth sentences.
   Whether an FMC employee is treated as an employee of the Executive Branch is a complex
   issue, and requires an analysis of the particular law (statute, regulation, executive order) at issue.
   For example, FMC staff are not considered federal "employees" under 5 U.S. C.§ 2105; Title 5
   of the U.S. Code sets forth general provisions regarding Government Organization and
   Employees. However, they have been considered "special government employees" for purposes
   of criminal conflict-of-interest statutes set forth at 18 U.S.C. § 207. To be more accurate, we
   offer the following language to replace the independent clause of the second sentence: "the status
   of FMC staffs as Executive Branch employees depends on the particular statute or other law at
   issue." We further offer the suggestion of deleting the word "member" from the fourth sentence
   so as to avoid confusion from the current reference to "Council staff members."


   1
    Magnuson-Stevens Fishery Conservation and Management Reauthorization Act of2006, Pub. L. No. 109-479
   (2007). [Note: This is in current draft report as footnote 4].


FINAL REPORT NO. OIG-13-011-I                                                                               18
  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL


Page 3, First paragraph, /"line.
We note that rulemaking is an activity conducted by NMFS to implement an approved-FMC
recommendation. We suggest distinguishing the FMC's role in providing for public input during
the development of fishery management recommendations (see 16 U.S.C. § 1852(h)(3) (public
hearings by Council during development of plans and amendments) from NMFS 's provision of
public participation opportunities during rulemak.ing (see 16 U.S.C. § 1854(b) (rulemak.ing
action by Secretary)). In order to draw that distinction, we offer the following language to
replace the words "rulemaking process": "development of management recommendations."

Page 3, paragraph 3, first sentence.
The description of FMPs should specifically state the conservation requirements of the YfSA.
See e.g. 16 U.S.C. §§ 185l(a) (specifying that national standards for FMPs include preventing
overfishing and minimizing bycatch and bycatch mortality), 1853(a)(15) (requiring FMPs to
have ammal catch limits such that overfishing does not occur) and 1854(e) (requiring rebuilding
overfished fisheries). To be a more complete statement, we offer the following rewording to the
first part of this sentence: "FMPs are intended to rebuild overfished fisheries, end overfishing
and achieve other conservation and management goals while minimizing adverse effects on ... "

Page 3, paragraph 3. second sentence.
As explained above in comments for Page 2, third paragraph. l" line, note that the Secretary's
approval, disapproval or partial approval is .based on whether an FMP or amendment is
consistent with applicable law.

Page 3, 4th paragraph, third sentence.
We note that the puhlic has opportunities to comment on Fiv1Ps both through the council process
during development of the FMP, and during the agem.:y review and rulemaking stages tlu:ough
formal notice and comment We offer the following to replace that sentence in order to identify
all opportunitjes for puhlic input: "As part of the statutory MSA process, designed to encourage
public participation and promote transparency, the public hm; ari opportunity to comnl.ent on
FMPs both during their development at the couneillevel, and then through NMFS's formal
public review process, and subsequent formal rulemaking process for implementing regulations."

Page 3, Footnote 9.
Please note that National Standard Guidelines are "advisory guidelines (which shall not have the
force and effect oflaw)." 16 CS.C. § 1851(b). To more accurately reflect the status of the
Guidelines, we offer the following: replace the word "regulations" with the word "guidelines."

Page 4, note (a).
Pw·suant to Section 301 (b) of the MSA, the Secretary publishes the National Standard guidelines
providing the Secretary's interpretation of the Standards. Table 1 summarizes the National
Standards themselves as set forth inMSA section 30l(a). To be more complete, we offer the
following to replace the language in note (a):· "Listed here arc summaries of the National
Standards as set forth in section 301(a) of the \1SA. Additional information and the Secretary's
guidance on the National Standards is set forth in 50 CFR 600.305 et seq."

Page 4, note (b).
We note that. under the MSA, "bycatch" is defined with reference to "fish," and "fish" is defined
not to include marine rnammals and birds. 16 U.S.C. §§ 1802(2), (12). To draw that distinction,
we offer the following language: "The term "bycatch" means fish which are harvested in .a


FINAL REPORT NO. OIG-13-011-I                                                                       19
  U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL


 fishery, but which are not sold or kept for personal use, and includes economic discards and
 regulatory discards. Such term does not include fish released alive under a recreational catch and
 release fishery management program. "Fish" do not include marine mammals or birds."

 Page 4, Table I.
 We offer the following clarifications to track better the text of the MSA National Standards at 16
 U.S.C. § 1851(a)(l), (4), (5), (9) and (10):
 NS 1 --add underlined text: "...while achieving. on a continuing basis, optimmn yield"
 NS 4 --revise as follows and to add underlined text: " ... different states. Any allocation ... fair
 and equitable; reasonably calculated to promote conservation; and carried out to avoid excessive
 shares 11
 NS 5 --revise to say ''consider 11 efficiency instead of "promote" efficiency. This language was
 statutorily revised in 1996.
 NS 9 --revise to add underlined text: "To extent practicable, minimize bycatch and mortality
 from bycatch"
 NS 10 --add "to the extent practicable" at the end.

 Page 4, Table 2.
 NOAA suggests that a note be added associated with the table reminding the reader that
 regulations may take a year or more to complete. Thus comparing the number of regulations
 from year-to-year may be difficult and not reflect increases or decreases in regulations. We offer
 the following language to provide that clarification: "Note: Regulations may take more than one
 year to. complete; thus, the numbers in the table only illustrate general levels of regulatory action
 from year-to-year."

 Page 5, Table 3
 We request clarity on what information was missing from the "Acknowledgement of no fmancial
 interests to disclose." If someone did disclose information on the form, then it would be
 appropriate for the acknowledgement to be left blank.

 Page 7, Table 4
 Vv'e suggest that "Revising the Operational Guidelines for the Fishery Management Process" be
 considered partially implemented, rather than unimplemented. While the 2005 revisions to the
 operational guidelines remain in Draft, aspects of those guidelines are being used, such as
 frontloading and interdisciplinary plan teams.

 Page 7, second paragraph.
 We offer the following language to replace the second paragraph to clarify the relationship
 between the RSP and the Operational Guidelines and the current status and function of the
 Operational Guidelines: "The RSP identified past problems, such as delays and inefficiencies, in
 developing FMPs and managing fisheries. One of the many actions included in the RSP was
 revision of the Operational Guidelines for the Fishery Management Process. The Operational
 Guidelines are an internal NMFS docmnent that explains how NOAA and the Councils will work
 together to integrate the many statutory requirements that apply to the development of fishery
 management actions. The guidelines currently in effect were last updated in 1997. NMFS
 developed draft revi~ed Operational Guidelines in 2005 ami they remain in draft fonn. Although
 the 2005 draft is available to NMFS employees through their Regulatory Services Intranet page,
 the guidance has not been finalized, and several NMFS employees we interviewed were unaware
 or only vaguely aware ofthe 2005 draft. While some elements of the 2005 draft are being


FINAL REPORT NO. OIG-13-011-I                                                                            20
  U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL


 applied, such as the use of interdisciplinary plan teams and frontloading, additional elements of
 the draft guidelines that could help to improve fishery management processes have not been fully
 implemented. One example is the regional operating agreement between each NMFS regional
 office and its FMC. The purpose of the agreement is to provide a clear understanding of roles,
 responsibilities, and obligations between FMCs and NMFS regional offices. As of summer
 2012, only one of the eight councils had a regional operating agreement with its NMFS regional
 office."

 Pa;;e 7, third parawaph.
 This paragraph does not fully reflect NMFS's explanation of why the 2005 draft Operational
 Guidelines were not finalized. We offer the following language to replace the third paragraph to
 clarify the reasons for why the 2005 draft Operational Guidelines were not fmalized: "Wilen
 questioned about why the guidelines were not finalized, NMFS officials explained that
 reauthorization of the MSA, which included a requirement for NMFS to revise and update its
 procedures for complying with the National Environmental Policy Act (NEPA), affected the
 application of the 2005 draft Operational Guidelines, which also addressed the application of
 NEPA to fishery management actions. In addition, early efforts to implement provisions in the
 2005 draft on a test basis revealed that some features placed unworkable demands on the Office
 of General Connsel staff and created undesirable redundancies. In 2005, NMFS officials
 indicated that the delay in formal issuance of the guidelines had not significantly affected
 progress in implementing regulatory process improvements."

 Page 9, first paragraph
 As written, this paragraph appears to assume that NMFS compiles discrete administrative
 records as each fishery management action is being developed. Although documents and other
 materials related to fishery management actions are retained consistent with requirements under
 the Federal Records Act, given the Large volume of actions taken NMFS only compiles
 administrative records in those instances where litigation challenging a regulation is filed or,
 sometimes, where litigation is expected. Further, it is not feasible to have a uniform practice for
 compiling an administrative record. Tn some cases, NMFS may take joint action with another
 agency that utilizes a different approach to assembling administrative records, or controlling
 legal precedent or other litigation considerations may dictate a different approach.

 Page 12, first paragraph after the table, first and second sentences.
 As written, the first and second sentences confuse the actions required generally to end and
 prevent overfishing (16 U.S.C. § 1853(a)(l5) (annual catch limits)) with those required when a
 stock is declared overfished (16 U.S.C. § 1854(e) (overfished fisheries)). To clarify these
 sentences, we offer the following language to replace the first and second sentences of this
 paragraph: "A primary goal of the reauthorized MSA was to end and prevent overfishing through
 the use of annual catch limits and accountability measures, which were required to be
 implemented by 2010 for stocks subject to overfishing and by 2011 for all others."

 Page 12, first paragraph after the table, line 4.
 Councils use many management tools to address overfishing. See 16 U.S.C. §§ 1853(a)(15)
 (requiring annual catch limits), 1853a (providing that Conncil may develop a LAPP) and 1S53(b)
 (providing other discretionary provisions, such as gear restrictions and time and area closures,
 that Council muy use in FMPs or arnemlments). To be more complete, we offer the the
 following additional language. After "FMCs use", insert "various tools including", and after



FINAL REPORT NO. OIG-13-011-I                                                                          21
  U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


"(LAPPs)", insert "as well as general catch limits, trip limits, seasons, gear restrictions, and bag
limits,".

Page 13, box 3.
Section 3(t) of Executive Order 12866 sets forth 4 criteria for determining whether an action is
"significant." See next comment for text of the criteria. Economic impact is not the only test.
To be accurate, we otler as a suggestion striking the word "economically" from this box.

PaKe 13, footnote a.
If more information about the determination of "significance," is desired, we offer the following
language after the citation to accomplish that objective: "A regulatory action is significant under
the EO if it is likely to result in a mle that may: 1. Have an annual effect on the economy of
$100 million or more or adversely affect in a material way the economy, a sector of the
economy, productivity, competition, jobs, Lhe environment, public health or safdy, or Stale,
local, or tribal governments or communities; 2. Create a serious inconsistency or otherwise
interfere with an action taken or planned by another agency; 3. Materially alter the budgetary
impact of entitlements, grants, user fees or loan programs or the rights and obligations of
recipients thereof; or 4. Raise novel legal or policy issues arising out oflegal mandates, the
President's priorities, or the principles set forth in the EO. See E.O. 12866 § 3(f)."

Page 13, box 8.
To track the MSA' s judicial review provision, specifically 16 U.S.C. § 1855(f)(l )-(2), we offer
the following in lieu of the current language in the box: "If judicial review is sought, a complaint
must be filed within 30 days after a final rule is promulgated or an action taken under regulations
is published in the Federal Register. A final rule or action remains in effect pending resolution
of the case."

  Page 13, footnote 20, lines I and 2.
  To be more accurate, we offer the following language to replace the first sentence: "The
  Regulatory Flexibility Act requires federal agencies to conduct analyses for regulatory actions
  that may have a significant economic impact on a substantial number of small entities, including
  consideration of significant alternatives that minimize any such impact and meet the objectives
  of applicable statutes. See 5 U.S.C. §§ 603, 604 and 605(b)." l\ote that sections 603 and 604 set
· forth requirements for initial and final regulatory flexibility analyses. Section 605(b) provides
  that lhuse analyses are not required for a proposed or final rule if an agency certifies that it will
  not "have a significant economic impact on a substantial number of small entities.

Editorial Comments

The statement in the cover memo and on page 1 that NMFS has cumplieu with "certain" MSA
requirements contains a negative inference that may understate NOAA' s compliance.

~OAA Response to OIG Recommendations
All of the OIG Recommendations in this draft report pertain to and can be implemented by
NOAA Fisheries. NOAA Fisheries accepts all of the recommendations and has no comments,
concerns or suggestions regarding these recommendations. We will develop a detailed action
plan to implement each recommendation upon the report being finalized.


011200000138 


FINAL REPORT NO. OIG-13-011-I                                                                             22
